                                                                         Federal Register / Vol. 73, No. 73 / Tuesday, April 15, 2008 / Notices                                            20311

                                          and 316.21. These requirements                             a. What is the potential role of the               written or electronic comments to the
                                          include, but are not limited to,                        Orphan Drug Act in providing                          Division of Dockets Management (see
                                          documentation of the following:                         incentives to facilitate antimicrobial                ADDRESSES). Submit a single copy of
                                             • The disease or condition for which                 drug development? Please describe the                 electronic comments or two paper
                                          the drug is intended affects fewer than                 serious and life-threatening infectious               copies of any mailed comments, except
                                          200,000 people in the United States                     diseases for which the Orphan Drug Act                that individuals may submit one paper
                                          (e.g., tuberculosis, malaria,                           provides viable research and                          copy. Comments should be identified
                                          trypanosomiasis).                                       development incentives. Please                        with the docket number found in
                                             • If the drug is a vaccine, diagnostic               comment on the potential complexities                 brackets in the heading of this
                                          drug, or preventative drug, the persons                 associated with identifying appropriate               document. To ensure consideration,
                                          to whom the drug will be administered                   orphan populations in the infectious                  submit comments by (see DATES).
                                          in the United States are fewer than                     disease context.                                      Received comments may be seen in the
                                          200,000 per year.                                          b. Are there specific incentives (other            Division of Dockets Management
                                             • For a drug intended for diseases or                than those provided by the Orphan Drug                between 9 a.m. and 4 p.m., Monday
                                          conditions affecting 200,000 or more                    Act) that could facilitate the                        through Friday.
                                          people, or for a vaccine, diagnostic drug,              development of new antimicrobial                        Please note that on January 15, 2008,
                                          or preventative drug to be administered                 therapies for serious and life-threatening            the FDA Division of Dockets
                                          to 200,000 or more persons per year in                  diseases? Describe those serious and                  Management Web site transitioned to
                                          the United States, there is no reasonable               life-threatening infectious diseases, such            the Federal Dockets Management
                                          expectation that costs of research and                  as diseases due to gram-negative                      System (FDMS). FDMS is a
                                          development of the drug for the                         bacteria and other diseases due to                    Government-wide, electronic docket
                                          indication can be recovered by sales of                 antimicrobial-resistant bacteria, which               management system. Electronic
                                          the drug in the United States.                          could be considered under an                          comments or submissions will be
                                             Antimicrobial drugs that have                        alternative incentive program.                        accepted by FDA through FDMS only.
                                          qualified for orphan drug designation in                IV. Notice of Hearing Under 21 CFR                    VI. Transcripts
                                          the past include some indicated for the                 Part 15
                                          treatment of tuberculosis, malaria, and                                                                          Please be advised that as soon as a
                                                                                                     The Commissioner is announcing that                transcript is available, it will be
                                          trypanosomiasis.                                        the public hearing will be held in                    accessible at http://www.fda.gov/ohrms/
                                          II. Purpose and Scope of the Hearing                    accordance with part 15 (21 CFR part                  dockets/ac/acmenu.htm. It may be
                                                                                                  15). The hearing will be conducted by                 viewed at the Division of Dockets
                                            This hearing is intended to provide
                                                                                                  a presiding officer, accompanied by                   Management (see ADDRESSES). A
                                          the infectious disease community,
                                                                                                  FDA senior management from the Office                 transcript will also be available in either
                                          sponsors, and other interested parties an
                                                                                                  of the Commissioner, the Center for                   hardcopy or on CD–ROM, after
                                          opportunity to discuss their experience
                                                                                                  Drug Evaluation and Research, the                     submission of a Freedom of Information
                                          with and concerns about the emerging
                                                                                                  Center for Biologics Evaluation and                   request. Written requests are to be sent
                                          threat of antimicrobial resistance,
                                                                                                  Research, and FDA’s Office of Orphan                  to Division of Freedom of Information
                                          possible strategies fostering prudent use
                                                                                                  Drugs.                                                (HFI–35), Office of Management
                                          to prevent the development of                              Under § 15.30(f), the hearing is
                                          antimicrobial resistance, and the                                                                             Programs, Food and Drug
                                                                                                  informal, and the rules of evidence do                Administration, 5600 Fishers Lane, rm.
                                          potential for the provisions of the                     not apply. No participant may interrupt
                                          Orphan Drug Act or other incentives to                                                                        6–30, Rockville, MD 20857.
                                                                                                  the presentation of another participant.
                                          facilitate antimicrobial drug                           Only the presiding officer and panel
                                                                                                                                                          Dated: April 9, 2008.
                                          development, including what, if any,                    members may question any person                       Jeffrey Shuren,
                                          conditions might be required to                         during or at the conclusion of each                   Associate Commissioner for Policy and
                                          accompany such incentives.                              presentation.                                         Planning.
                                          III. Issues for Discussion                                 Public hearings under part 15 are                  [FR Doc. 08–1129 Filed 4–10–08; 12:23 pm]
                                                                                                  subject to FDA’s policy and procedures                BILLING CODE 4160–01–S
                                             FDA invites comments from                            for electronic media coverage of FDA’s
                                          interested parties on the following                     public administrative proceedings (part
                                          questions:                                              10 (21 CFR part 10), subpart C)). Under               DEPARTMENT OF HEALTH AND
                                             1. Please discuss strategies that                    § 10.205, representatives of the                      HUMAN SERVICES
                                          should be considered to limit the                       electronic media may be permitted,
                                          development of antimicrobial                                                                                  Office of Inspector General
                                                                                                  subject to certain limitations, to
                                          resistance, and studies that could be                   videotape, film, or otherwise record
                                          done to assess the utility, safety and                                                                        Privacy Act of 1974, New OIG Privacy
                                                                                                  FDA’s public administrative                           Act System of Records: Litigation Files
                                          effectiveness of those strategies. Possible             proceedings, including presentations by
                                          examples include limiting the approved                  participants. The hearing will be                     AGENCY:  Office of Inspector General
                                          conditions of use, limiting the duration                transcribed as stipulated in § 15.30(b).              (OIG), HHS. 

                                          of therapy, restricting distribution to                    To the extent that the conditions for              ACTION: Notice of proposed new Privacy 

                                          encourage appropriate use, using shorter                the hearing, as described in this notice,             Act systems of records. 

                                          courses of therapy with higher doses of                 conflict with any provisions set out in
                                          antimicrobials, and using directly                      part 15, this notice acts as a waiver of              SUMMARY:  The Office of Inspector
                                          observed therapy.                                       those provisions as specified in 21 CFR               General (OIG) is proposing a new
jlentini on PROD1PC65 with NOTICES




                                             2. Please discuss the possible utility               15.30(h).                                             system of records, entitled Litigation
                                          and effectiveness of economic                                                                                 Files, Administrative Complaints, and
                                          incentives in promoting drug                            V. Request for Comments                               Personnel Actions, HHS/OS/OIG/OCIG
                                          development for antimicrobial resistant                   Regardless of attendance at the public              (09–90–0077). This proposed notice is
                                          organisms.                                              hearing, interested persons may submit                in accordance with the Privacy Act


                                     VerDate Aug<31>2005   17:31 Apr 14, 2008   Jkt 214001   PO 00000   Frm 00070   Fmt 4703   Sfmt 4703   E:\FR\FM\15APN1.SGM   15APN1
                                          20312                          Federal Register / Vol. 73, No. 73 / Tuesday, April 15, 2008 / Notices

                                          requirement that agencies publish their                 close of the comment period, your                     for Maintenance of the System,’’
                                          systems of records in the Federal                       printed or written comments to the                    ‘‘Routine Uses,’’ ‘‘Purposes,’’ ‘‘Storage,’’
                                          Register when there is a revision,                      Office of Inspector General, Department               ‘‘System Safeguards,’’ and ‘‘System
                                          change, or addition. This new system                    of Health and Human Services, Cohen                   Manager(s) and Address’’ sections are to
                                          will replicate the existing system of                   Building, 330 Independence Avenue,                    reflect that responsibility for providing
                                          records, entitled Litigation Files,                     SW., Washington, DC 20201. Because                    legal services to the Inspector General
                                          Administrative Complaints, and                          access to the interior of the Cohen                   transferred to the Office of Counsel to
                                          Adverse Personnel Actions, HHS/OS/                      Building is not readily available to                  the Inspector General (OCIG).
                                          OGC (09–90–0064), to reflect that                       persons without Federal Government                       The Inspector General Act of 1978
                                          responsibility for providing legal                      identification, commenters are                        established OIG ‘‘to conduct and
                                          services to the Inspector General has                   encouraged to schedule their delivery                 supervise audits and investigations
                                          transferred to OIG’s Office of Counsel to               with one of our staff members at (202)                relating to the programs and operations’’
                                          the Inspector General (OCIG). The                       358–3141. Inspection of Public                        of the Department of Health and Human
                                          existing Litigation Files system of                     Comments: All comments received                       Services (HHS). Within OIG, OCIG (1)
                                          records (09–90–0064) remains with the                   before the end of the comment period                  provides general legal services to OIG
                                          Department’s Office of General Counsel                  will be posted on http://                             including, among other things, advice
                                          and will be unchanged. This notice                      www.regulations.gov for public viewing.               and representation on HHS programs
                                          specifically covers that portion of the                 Hard copies will also be available for                and operations, administrative law
                                          records that transferred to, or have been               public inspection at the Office of                    issues, and criminal procedure; (2)
                                          since created and maintained by, OCIG.                  Inspector General, Department of Health               imposes program exclusions and civil
                                          The Litigation Files, Administrative                    and Human Services, Cohen Building,                   money penalties on health care
                                          Complaints, and Personnel Actions,                      330 Independence Avenue, SW.,                         providers and litigates those actions
                                          HHS/OS/OIG/OCIG system of records                       Washington, DC 20201, Monday                          within the Department; (3) represents
                                          will be maintained for the purposes of                  through Friday from 8:30 a.m. to 4 p.m.               OIG in the global settlement of cases
                                          representing OIG and its components in                  To schedule an appointment to view                    arising under the False Claims Act; and
                                          court cases and administrative                          public comments, phone (202) 619–                     (4) represents OIG in personnel actions.
                                          proceedings, in accordance with the                     0089.                                                 Description of the Proposed System of
                                          Inspector General Act of 1978 (5 U.S.C.                 FOR FURTHER INFORMATION CONTACT:                      Records
                                          App.).                                                  Melissa McCurdy, Office of Counsel to                    The Litigation Files, Administrative
                                          DATES: Effective Date: This system of                   the Inspector General, (202) 619–0335.                Complaints, and Personnel Actions,
                                          records will become effective without                   SUPPLEMENTARY INFORMATION: The Office                 HHS/OS/OIG/OCIG system will enable
                                          further notice on June 16, 2008, unless                 of Inspector General (OIG) proposes to                OCIG to access and maintain records for
                                          comments received on or before that                     establish a new Privacy Act system of                 the purpose of representing OIG and its
                                          date result in a contrary determination.                records, 09–90–0077, Litigation Files,                components in court cases and
                                             Comment Date: Comments on this                       Administrative Complaints, and                        administrative proceedings. The system
                                          new system of records will be                           Personnel Actions, HHS/OS/OIG/OCIG.                   will house records pertaining to
                                          considered if we receive them at the                    The new system will duplicate an                      litigation, administrative complaints,
                                          addresses provided below no later than                  existing Privacy Act system of                        and personnel actions in which OIG is,
                                          5 p.m. Eastern Standard Time on May                     Records—Litigation Files,                             or was, involved.
                                          15, 2008.                                               Administrative Complaints, and
                                          ADDRESSES: In commenting, please                        Adverse Personnel Actions HHS/OS/                     Agency Policies, Procedures, and
                                          reference file code OIG–796–PN.                         OGC (09–90–0064)—which was last                       Restrictions on the Routine Use
                                          Because of staff and resource                           revised and updated in the Federal                       The Privacy Act permits OIG to
                                          limitations, we cannot accept comments                  Register on November 9, 1994 (59 FR                   disclose information without an
                                          by facsimile (Fax) transmission.                        55845), by adding a new routine use to                individual’s consent if the information
                                          However, you may submit comments                        permit the disclosure of information                  is to be used for a purpose that is
                                          using one of the following three ways                   from this system to certain individuals               compatible with the purposes for which
                                          (no duplicates, please):                                working in various offices within the                 the information was collected. Any such
                                             1. Electronically. You may submit                    Office of the Secretary, but who do not               disclosure of data is known as a routine
                                          electronically through the Federal                      have the status of agency employees                   use. We are proposing to establish the
                                          eRulemaking Portal at http://                           and, in many instances, do not receive                following routine use disclosures of
                                          www.regulations.gov. (Attachments                       pay for their work.                                   records maintained in the system:
                                          should be in Microsoft Word, if                            The new system of records—                            1. Disclosure may be made to a
                                          possible.)                                              Litigation Files, Administrative                      congressional office from the record of
                                             2. By regular, express, or overnight                 Complaints, and Personnel Actions,                    an individual in response to an inquiry
                                          mail. You may mail your printed or                      HHS/OS/OIG/OCIG (09–90–0077)—will                     from the congressional office made at
                                          written submissions to the following                    replicate the 09–90–0064 system of                    the request of that individual.
                                          address: Office of Inspector General,                   records, but will modify the ‘‘System                    2. In the event of litigation,
                                          Department of Health and Human                          Name,’’ ‘‘System Location,’’ ‘‘Categories             information from the system of records
                                          Services, Attention: OIG–796–PN, Room                   of Individuals Covered by the System,’’               may be disclosed to the Department of
                                          5246, Cohen Building, 330                               ‘‘Authority for Maintenance of the                    Justice, to a judicial or administrative
                                          Independence Avenue, SW.,                               System,’’ ‘‘Routine Uses,’’ ‘‘Purposes,’’             tribunal, opposing counsel, and
                                          Washington, DC 20201. Please allow                      ‘‘System Safeguards,’’ and ‘‘System                   witnesses, in the course of proceedings
jlentini on PROD1PC65 with NOTICES




                                          sufficient time for mailed comments to                  Manager(s) and Address’’ sections.                    involving HHS, any HHS employee
                                          be received before the close of the                     Records in the system have been located               (where the matter pertains to the
                                          comment period.                                         and maintained in OIG’s headquarters.                 employee’s official duties), or the
                                             3. By hand or courier. You may                       The modification of the ‘‘System                      United States, or any agency thereof
                                          deliver, by hand or courier, before the                 Name,’’ ‘‘System Location,’’ ‘‘Authority              where the litigation is likely to affect


                                     VerDate Aug<31>2005   17:31 Apr 14, 2008   Jkt 214001   PO 00000   Frm 00071   Fmt 4703   Sfmt 4703   E:\FR\FM\15APN1.SGM   15APN1
                                                                         Federal Register / Vol. 73, No. 73 / Tuesday, April 15, 2008 / Notices                                             20313

                                          HHS, or HHS is a party or has an                        need access to the records in order to                 Wilbur J. Cohen Building, 330
                                          interest in the litigation and the use of               perform their assigned agency functions.               Independence Avenue, SW.,
                                          the information is relevant and                           9. A record may be disclosed to                      Washington, DC 20201.
                                          necessary to the litigation.                            appropriate Federal agencies and
                                                                                                                                                         CATEGORIES OF INDIVIDUALS COVERED BY THE
                                             3. In the event that a system of records             Department contractors that have a need
                                                                                                                                                         SYSTEM:
                                          maintained by this agency to carry out                  to know the information for the purpose
                                          its functions indicates a violation or                  of assisting the Department’s efforts to                 The individuals on whom records are
                                          potential violation of law, whether civil,              respond to a suspected or confirmed                    maintained in this system are
                                          criminal or regulatory in nature, and                   breach of the security or confidentiality              individuals who are involved in civil,
                                          whether arising by general statute or                   of information maintained in this                      criminal, or administrative litigation
                                          particular program statute, or by                       system of records, and the information                 with the Department or the United
                                          regulation, rule or order issued pursuant               disclosed is relevant and necessary for                States (regarding matters within the
                                          thereto, the relevant records in the                    that assistance.                                       jurisdiction of the Department) either as
                                          system of records may be referred, as a                                                                        plaintiffs or as defendants, and
                                                                                                  Safeguards                                             individuals who either file
                                          routine use, to the appropriate agency,
                                          whether Federal, or foreign, charged                      OIG has safeguards in place for                      administrative complaints with the
                                          with the responsibility of investigating                authorized users and monitors users to                 Department or are the subjects of
                                          or prosecuting such violation or charged                ensure against unauthorized use. The                   administrative complaints initiated by
                                          with enforcing or implementing the                      system will conform to all applicable                  the Department.
                                          statute or rule, regulation, or order                   Federal laws and regulations and                       CATEGORIES OF RECORDS IN THE SYSTEM:
                                          issued pursuant thereto.                                Federal, HHS, and OIG policies and                        These records contain information
                                             4. In the event the Department deems                 standards as they relate to information                pertaining to the subject matter of the
                                          it desirable or necessary, in determining               security and data privacy.                             litigation, administrative complaint, or
                                          whether particular records are required                 Effects of the Proposed System of                      personnel action. Such records would
                                          to be disclosed under the Freedom of                    Records on Individual Rights                           include complaints, litigation reports,
                                          Information Act, disclosure may be                                                                             administrative transcripts, various
                                          made to the Department of Justice for                     This system is established in
                                                                                                                                                         litigation documents, investigative
                                          the purpose of obtaining its advice.                    accordance with the principles and
                                                                                                                                                         materials, correspondence, briefs, court
                                             5. A record from this system of                      requirements of the Privacy Act and will
                                                                                                                                                         orders, and judgments.
                                          records may be disclosed as a ‘‘routine                 collect, use, and disseminate
                                          use’’ to a Federal, State, or local agency              information only as prescribed therein.                AUTHORITY FOR MAINTENANCE OF THE SYSTEM:
                                          maintaining civil, criminal, or other                   Data in this system will be subject to the               The authority for maintaining this
                                          relevant enforcement records or other                   authorized releases in accordance with                 system is found in the various statutes,
                                          pertinent records, such as current                      the routine uses identified in this                    regulations, rules, or orders pertaining
                                          licenses, if necessary to obtain a record               system of records notice.                              to the subject matter of the litigation,
                                          relevant to an agency decision                            OIG will take precautionary measures                 administrative complaint, or adverse
                                          concerning the hiring or retention of an                to minimize the risks of unauthorized                  personnel action, (e.g., Inspector
                                          employee, the issuance of a security                    access to the records and the potential                General Act and the Social Security
                                          clearance, the letting of a contract, or                harm to individual privacy or other                    Act).
                                          the issuance of a license, grant, or other              personal or property rights of applicants
                                                                                                  whose data are maintained in the                       PURPOSE(S):
                                          benefit.
                                             6. A record from this system of                      system. OCIG will make disclosures                       To advise and represent the Office of
                                          records may be disclosed to a Federal                   from the proposed system in accordance                 Inspector General and its components in
                                          agency in response to its request, in                   with the Privacy Act. OCIG does not                    court cases and administrative
                                          connection with the hiring or retention                 anticipate an unfavorable effect on                    proceedings.
                                          of an employee, the issuance of a                       individual privacy as a result of the
                                                                                                                                                         ROUTINE USES OF RECORDS MAINTAINED IN THE
                                          security clearance, the reporting of an                 disclosure of information relating to                  SYSTEM INCLUDING CATEGORIES OF USERS AND
                                          investigation of an employee, the letting               individuals.                                           THE PURPOSES OF SUCH USES:
                                          of a contract, or the issuance of a                       This proposed change will not
                                                                                                                                                            a. Disclosure may be made to a
                                          license, grant, or other benefit by the                 otherwise increase access to these
                                                                                                                                                         congressional office from the record of
                                          requesting agency, to the extent that the               records.
                                                                                                                                                         an individual in response to an inquiry
                                          record is relevant and necessary to the                   Dated: April 10, 2008.                               from the congressional office made at
                                          requesting agency’s decision on the                     Daniel R. Levinson,                                    the request of that individual.
                                          matter.                                                 Inspector General.                                        b. In the event of litigation,
                                             7. Information in this system of                                                                            information from the system of records
                                          records may be disclosed to a Federal,                  09–90–0077                                             may be disclosed to the Department of
                                          State, or local agency maintaining civil,               SYSTEM NAME:                                           Justice, to a judicial or administrative
                                          criminal, or other relevant enforcement                                                                        tribunal, opposing counsel, and
                                                                                                    Litigation Files, Administrative
                                          records, or other pertinent records, such                                                                      witnesses, in the course of proceedings
                                                                                                  Complaints, and Personnel Actions, HS/
                                          as current licenses, if necessary to                                                                           involving HHS, any HHS employee
                                                                                                  OS/OIG/OCIG.
                                          obtain a record relevant to an agency                                                                          (where the matter pertains to the
                                          concerning the hiring or retention of an                SECURITY CLASSIFICATION:                               employee’s official duties), or the
                                          employee, the issuance of a license,                          None.                                            United States, or any agency thereof
jlentini on PROD1PC65 with NOTICES




                                          grant, or other benefit.                                                                                       where the litigation is likely to affect
                                             8. To student volunteers and other                   SYSTEM LOCATION:                                       HHS, or HHS is a party or has an
                                          individuals performing functions for the                  Office of Counsel to the Inspector                   interest in the litigation and the use of
                                          Department, but technically not having                  General (OCIG), Department of Health                   the information is relevant and
                                          the status of agency employees, if they                 and Human Services, Room 5527,                         necessary to the litigation.


                                     VerDate Aug<31>2005   17:31 Apr 14, 2008   Jkt 214001   PO 00000    Frm 00072   Fmt 4703   Sfmt 4703   E:\FR\FM\15APN1.SGM   15APN1
                                          20314                          Federal Register / Vol. 73, No. 73 / Tuesday, April 15, 2008 / Notices

                                             c. In the event that a system of records             Department contractors that have a need               RECORDS ACCESS PROCEDURES:
                                          maintained by this agency to carry out                  to know the information for the purpose                 Same as notification procedures.
                                          its functions indicates a violation or                  of assisting the Department’s efforts to              Requesters should also reasonably
                                          potential violation of law, whether civil,              respond to a suspected or confirmed                   specify the record contents being
                                          criminal, or regulatory in nature, and                  breach of the security or confidentiality             sought. (These access procedures are in
                                          whether arising by general statute or                   of information maintained in this                     accordance with Department regulations
                                          particular program statute, or by                       system of records, and the information                (45 CFR 5b.5 (a)(2).)
                                          regulation, rule, or order issued                       disclosed is relevant and necessary for
                                          pursuant thereto, the relevant records in               that assistance.                                      CONTESTING RECORD PROCEDURES:
                                          the system of records may be referred,
                                          as a routine use, to the appropriate                    POLICIES AND PRACTICES FOR STORING,                     Contact the official at the address
                                                                                                  RETRIEVING, ACCESSING, RETAINING, AND                 System Manager(s) and Address above,
                                          agency, whether Federal or foreign,
                                                                                                  DISPOSING OF RECORDS IN THE SYSTEM:
                                          charged with the responsibility of                                                                            and reasonably identify the record and
                                          investigating or prosecuting such                       STORAGE:                                              specify the information to be contested
                                          violation or charged with enforcing or                    Records are stored in electronic form               and corrective action sought with
                                          implementing the statute or rule,                       and paper files are stored in locked file             supporting justification. (These
                                          regulation or order issued pursuant                     cabinets.                                             procedures are in accordance with
                                          thereto.                                                                                                      Department regulations (45 CFR 5b.7).)
                                             d. In the event the Department deems                 RETRIEVABILITY:
                                          it desirable or necessary, in determining                 These records are retrievable by name               RECORD SOURCE CATEGORIES:
                                          whether particular records are required                 of the plaintiff or the first plaintiff if              The information for this system is
                                          to be disclosed under the Freedom of                    there is more than one, or by the name                obtained through a number of sources
                                          Information Act, disclosure may be                      of the first defendant if the plaintiff is            including the exchange of legal
                                          made to the Department of Justice for                   the United States. In the case of                     pleadings, documents, formal and
                                          the purpose of obtaining its advice.                    personnel actions, records are
                                             e. A record from this system of                                                                            informal discovery, program offices and
                                                                                                  retrievable by name of the individual                 component agencies, private attorneys,
                                          records may be disclosed as a ‘‘routine                 involved.
                                          use’’ to a Federal, State, or local agency                                                                    State and local governments, their
                                          maintaining civil, criminal, or other                   SAFEGUARDS:                                           agencies and instrumentalities, and
                                          relevant enforcement records or other                                                                         officers of other Federal agencies and
                                                                                                    Office buildings in which these
                                          pertinent records, such as current                                                                            the individuals involved.
                                                                                                  records are maintained are secured by a
                                          licenses, if necessary to obtain a record               variety of security systems. The                      SYSTEMS EXEMPTED FROM CERTAIN PROVISIONS
                                          relevant to an agency decision                          computer terminals used to access the                 OF THE ACT:
                                          concerning the hiring or retention of an                records are secured with passwords,
                                          employee, the issuance of a security                    encryptions, and other security devices,                 None.
                                          clearance, the letting of a contract, or                comply with all relevant computer                     [FR Doc. E8–7987 Filed 4–14–08; 8:45 am]
                                          the issuance of a license, grant, or other              security procedures, and are kept in                  BILLING CODE 4152–01–P
                                          benefit.                                                rooms that are locked at the close of the
                                             f. A record from this system of records              business day, and are generally
                                          may be disclosed to a Federal agency,                   accessible only to OCIG staff.                        DEPARTMENT OF HEALTH AND
                                          response to its request, in connection                                                                        HUMAN SERVICES
                                          with the hiring or retention of an                      RETENTION AND DISPOSAL:
                                          employee, the issuance of a security                      These records are maintained for an                 National Institutes of Health
                                          clearance, the reporting of an                          indefinite duration.
                                          investigation of an employee, the letting                                                                     National Cancer Institute; Amended
                                          of a contract, or the issuance of a                     SYSTEM MANAGER(S) AND ADDRESS:                        Notice of Call for Nominations for the
                                          license, grant, or other benefit by the                   The agency official responsible for the             National Cancer Institute Director’s
                                          requesting agency, to the extent that the               system policies and practices outlined                Consumer Liaison Group
                                          record is relevant and necessary to the                 above is: The Chief Counsel, Office of
                                          requesting agency’s decision on the                     Counsel to the Inspector General,                       Notice is hereby given of a change in
                                          matter.                                                 Department of Health and Human                        the Call for Nominations for the
                                             g. Information in this system of                     Services, Wilbur J. Cohen Building,                   National Cancer Institute Director’s
                                          records may be disclosed to a Federal,                  Room 5527, 330 Independence Avenue,                   Consumer Liaison Group which was
                                          State, or local agency maintaining civil,               SW., Washington, DC 20201.                            published in the Federal Register on
                                          criminal, or other relevant enforcement                                                                       March 18, 2008, 73 FR 14476–14477.
                                                                                                  NOTIFICATION PROCEDURES:
                                          records, or other pertinent records, such                                                                       This call for nominations is being
                                          as current licenses, if necessary to                      Any inquiries regarding these systems               amended to revise the due date for
                                          obtain a record relevant to an agency                   of records should be addressed to the                 candidates interested in being
                                          concerning the hiring or retention of an                System Manager. An individual who                     considered for appointment to the
                                          employee, the issuance of a license,                    requests notification of or access to a               Director’s Consumer Liaison Group to
                                          grant, or other benefit.                                medical record shall, at the time the                 postmark their nomination package by
                                             h. To student volunteers and other                   request is made, designate in writing a               April 30, 2008 instead of April 15, 2008.
                                          individuals performing functions for the                responsible representative who will be
                                          Department, but technically not having                  willing to review the record and inform                 Dated: April 8, 2008.
jlentini on PROD1PC65 with NOTICES




                                          the status of agency employees, if they                 the subject individual of its contents at             Jennifer Spaeth,
                                          need access to the records in order to                  the representative’s discretion. (These               Director, Office of Federal Advisory
                                          perform their assigned agency functions.                notification and access procedures are                Committee Policy.
                                             i. A record may be disclosed to                      in accordance with Department                         [FR Doc. E8–7929 Filed 4–14–08; 8:45 am]
                                          appropriate Federal agencies and                        regulations (45 CFR 5b.6).)                           BILLING CODE 4140–01–M




                                     VerDate Aug<31>2005   17:31 Apr 14, 2008   Jkt 214001   PO 00000   Frm 00073   Fmt 4703   Sfmt 4703   E:\FR\FM\15APN1.SGM   15APN1
